OIG Audit Report GR-30-03-004

Office of Community Oriented Policing Services Grants to the Suffolk Police Department, Suffolk, Virginia

Audit Report GR-30-03-004


May 2003
Office of the Inspector General
Note:   On September 30, 2002, the General Counsel of the Office of the Inspector General (OIG) advised the OIG Audit Division that 42 U.S.C. § 3796dd-2 limited the term of an Office of Community Oriented Policing (COPS) grant for the hiring of law enforcement officers to five years and the term of a grant for other purposes to three years; this opinion considered any grant renewal or extension periods to be included in the term limitations.  As a result, grant periods with terms that exceeded those in statute were considered to be in violation by the OIG and were addressed accordingly in our audit reports.  However, the OIG General Counsel, on June 13, 2003, rescinded his earlier opinion and now believes that the use of a "no-cost" grant period extension, in and of itself, is not inconsistent with the above statute reference.  As a result, findings developed solely because of this issue, if any, are no longer viewed as a violation of statute and the associated recommendation has been closed with no further action required by the entity audited or the COPS Office.
[This note added on 7/21/2003]


Executive Summary

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Suffolk Police Department (grantee).  The purpose of the grants was to enhance community policing.  The grantee was awarded a total of $3,388,766 to hire 43 new police officers and redeploy the equivalent of 9.2 existing full-time police officers from administrative duties to community policing.
We reviewed the grantee's compliance with seven essential grant conditions and found weaknesses in the hiring of officers, source of local matching funds, reimbursement requests, and retention of officer positions.  As a result of the deficiencies identified below, we question $1,165,870 in grant funds received.1

The grantee was not within the target officer level for 79 of the 83 months we reviewed.  Therefore, we question $942,745 associated with the shortfall.
The grantee used funds previously budgeted for law enforcement as its local match for the MORE 98 grant.  Therefore, we question $223,125.
The grantee acquired computer hardware, software, and related equipment different from that in its MORE 98 grant application without prior approval from the COPS Office, and the grant funds were not all expended before the statutory time limit.  Therefore, we question $7,733 of equipment costs to the MORE 98 grant.
The grantee did not meet the retention requirements for the AHEAD grant and two of the three UHP supplements.  The grantee did not track replacements of officers and did not fill or backfill vacancies in locally funded and COPS funded positions.
The grantee did not demonstrate accomplishment of substantive and meaningful data in time savings and redeployment of officers as a result of the implementation of the MORE 98 grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.